January 13, 2009

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUBJECT: Management Advisory – Postal Service Management Instruction –
         Expenses for Internal and External Events
         (Report Number FT-MA-09-001)

This management advisory provides the results of our review of the U.S. Postal Service
Management Instruction (MI) – Expenses for Internal and External Events (Project
Number 08BG002FT001). Xx xxxxxxxxx xxxx xxxxxx xx x xxxxxx xx xxx Xxxxxx
Xxxxxxxxx xxxxxxxx xx xxxxxxxx xxxxxx xxxxxx x XXXX Xxxxxx Xxxxxxx Xxxxxx xx
Xxxxxxxxx Xxxxxxx XXXXX xxxxxxxxxxxxx xxxx xxx xxx xx xxxxxx xxxxxxx xxxxx. Xxx
XXX Xxxxxx xx Xxxxxxxxxxxxxx xxxxxxxxxx xxxxxxxxxxxx xxxxx xxxxxxxxx
xxxxxxxxxxxxxx xxx xxxxxxxxxxxx xxxxxxx xxxxx, xxxxxxxxxxx xxxxxxxxx
xxxxxxxxxxxxx xxxxxx, xxx xxxxxxxx xx xxxxxxx, xxx xxxxxxxx xxx xxxxxxxxxxxx
xxxxxxx. See Appendix A for additional information about this audit.

Conclusion

We found the draft MI did not address all the concerns raised in the xxxxxxxxxxxxx and
should include changes in three key areas: the use of personal credit cards, consistent
and detailed definitions, and transparency among all Postal Service managers. During
our review, we suggested various changes based on best practices and our
observations. Postal Service management agreed with and addressed most of our
suggested changes prior to issuance of our draft management advisory. See
Appendix B for our review of management’s comments and their updates to the draft
MI.

Subsequent to the issuance of our draft management advisory, management further
revised the MI and issued the final, FM-640-2008-1, effective September 10, 2008. We
believe the changes made in the final MI decrease the risk of potential mismanagement.

Use of Personal Credit Cards

We suggested the Postal Service revise the MI to prohibit the use of personal credit
cards for working meals and employee appreciation events and to delete all references
to the use of cash. These changes would help ensure employees do not improperly
accrue personal benefits and rewards or conceal from the Postal Service the details of
unauthorized purchases. Management adequately addressed our issues by precluding
the use of personal credit cards and deleting references to cash.
Postal Service Management Instruction –                                                  FT-MA-09-001
 Expenses for Internal and External Events


Consistent and Detailed Definitions

We also suggested the Postal Service provide consistent and more detailed definitions
throughout the MI. Management adequately addressed our issues related to defining
terms such as “internal events,” “significant others,” “business meals,” and “manager,”
and specified the authority level that can approve each activity under each “Authorized
Expense Type.” However, the Postal Service did not sufficiently address our concerns
related to the following.

      •    Define “employee recognition” and “employee appreciation” meals and
           gatherings. Any meal can be considered an employee appreciation event if the
           manager concludes it is not routine. Final definitions were included in the
           exhibits of the final MI.
      •    Update Exhibits A.2 and A.3, Other References column, to include
           Handbook F-15, Travel and Relocation; revise the language in Exhibit A.3 so it
           does not conflict with Handbook F-15; and state whether managers must exclude
           non-Postal Career Executive Service (PCES) employees from meals. The MI
           seems to say that meals must be “required” and specifically authorizes PCES
           employees to “host” business meals with customers. As a result, the MI may be
           in conflict with Handbook F-15, for local travel. In addition, the MI does not
           clearly state whether managers must exclude non-PCES employees from meals.
           The final MI referenced Handbook F-15, and Section II stated who may attend
           internal and external events.
      •    Define what “typically,” “when practicable,” and “may” mean in this context by
           using more authoritative language (for example, “shall” instead of “may”).
           Management did not change these terms in the final MI but will revisit as
           necessary.
      •    In both exhibits, specifically include or exclude payment for non-Postal Service
           employee travel on each individual “Authorized Expense Type.” Section III of the
           final MI was clarified to advise that this type of travel is not authorized unless it is
           usual, customary, and approved in advance.
      •    Clarify the scope of the MI’s alcohol consumption policy to eliminate conflict with
           provisions of 39 C.F.R. § 447.21(e) regarding prohibited conduct and the
           Employee and Labor Relations Manual (ELM)1 regarding intoxicating beverages.
           The MI provides that “officers may also authorize Postal Service funds to
           purchase and pay for alcohol (beer and wine only) to be served in conjunction
           with officer-approved internal or external events.” As defined in the MI, internal
           events include “working meeting meals” and external events include “business
           meals.” However, 39 C.F.R. § 447.21(e) and the ELM prohibit Postal Service
           employees from “drink[ing] beer, wine or other intoxicating beverages while on
           duty.” The ELM states “employees found to be violating this policy may be
           subject to disciplinary action.” Management modified the final MI’s alcohol


1
    ELM Issue 18, dated June 2007, Chapter 6, Employee Relations, Subchapter 660, Conduct, Section 665.26.


                                                         2
Postal Service Management Instruction –                                   FT-MA-09-001
 Expenses for Internal and External Events


        consumption policy but did not explicitly recognize in the MI that it re-interprets
        Title 39 and the ELM.

Transparency Among All Postal Service Managers

Finally, we suggested several revisions to the MI to provide greater transparency
among all managers. Management adequately addressed dollar limits, formatting
changes, specific citation language, explicit references to the inclusion or exclusion of
attendees, and reconciliation of the policy section with the exhibits. However, the Postal
Service did not sufficiently address our concerns related to the following.

    •   Ensure the MI addresses tax obligations regarding meals and refreshments for
        spouses, significant others, and immediate family members, instead of referring
        the reader to Handbook F-15, Travel and Relocation. The exhibits should also
        cover tax implications and specify how to address them. Management did not
        modify the tax consideration verbiage because it is not significant, tracked, or
        reported.
    •   Reconcile the MI policy regarding payment of travel for non-Postal Service
        employees (which requires Postmaster General [PMG] or Deputy PMG approval)
        with the exhibits (which often allows for approval by the hosting or responsible
        officer). Additionally, the MI should specify that “advance” approval is required.
        Section III of the final MI was clarified to advise that this type of travel is not
        authorized unless it is usual, customary, and approved in advance.
    •   Require all expenses associated with internal and external events (meals,
        refreshments, employee recognition gifts, gift cards, etc.) to be included in a
        unique general ledger account(s). The account(s) should identify each item on a
        line item basis along with the item recipient’s name and date of receipt. The
        account(s) need(s) to be clearly indicated in the MI to ensure transparency and
        accountability. Management did not modify the final MI to identify unique general
        ledger accounts.

These changes would provide more transparency regarding expenses for internal and
external events and the same level of accountability currently expected of officers for
their travel and representation expenses.

We discussed our observations with management on March 4 and 28, 2008. Prior to
our discussions, management provided informal comments to our draft management
advisory via email on March 3, 2008. Management provided additional comments and
updates to the MI on March 4, 6, and 27, 2008, for our review. See Appendix B for our
review of management’s comments and updates to the draft MI.

Management stated they could not incorporate two changes into the MI since senior
level management would need to address them. The changes involved (1) clarifying the
scope of the MI’s alcohol consumption policy to eliminate conflict with provisions of 39
C.F.R. § 447.21(e) and the ELM; and (2) requiring all expenses associated with internal



                                               3
Postal Service Management Instruction –                                                 FT-MA-09-001
 Expenses for Internal and External Events


and external events to be included in a unique general ledger account(s). We continue
to believe these issues are important; senior level management should be consulted
about incorporating them into the MI.

We recommend the Vice President, Controller:

    1. Consult with senior level management to further update the Management
       Instruction, Expenses for Internal and External Events, to clarify the scope of the
       alcohol consumption policy in order to eliminate the conflict with provisions of 39
       C.F.R. § 447.21(e) regarding prohibited conduct and the Employee and Labor
       Relations Manual, Section 665.26, regarding intoxicating beverages.2

Management’s Comments

Management neither agreed nor disagreed with the recommendation. However,
management changed the language in the MI’s Section VII, Allowable Expenses to read
as follows: "When reasonable, customary, and participants are either not on duty (i.e.,
after normal business hours) or not in their assigned postal workplace during scheduled
working hours,3 officers may also authorize Postal Service funds to purchase and pay
for alcohol (beer and wine only) to be served in conjunction with officer-approved
internal or external events." See Appendix C for management’s comments in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation. We
continue to believe the MI should explicitly recognize that this policy re-interprets the
scope of Title 39, Code of Federal Regulations, Section 447.21(e) and the ELM,
Section 665.26, that prohibit Postal Service employees from consuming alcohol while
on duty. However, we will not persist in pursuing the issue at this time, but will continue
to monitor it as part of our ongoing audit oversight.

We recommend the Vice President, Controller:

    2. Consult with senior level management to further update the Management
       Instruction, Expenses for Internal and External Events to require that all
       expenses associated with internal and external events be included in a unique
       general ledger account(s).4




2
  In our draft report issued April 18, 2008, this was recommendation 1.A.
3
  Verbiage in management’s written response states “…or expected to return to duty following event conclusion.”
However, after communication with the OIG subsequent to management’s formal response, they further revised the
statement. The text noted is now included in the issued MI.
4
  In our draft report issued April 18, 2008, this was recommendation 1.B.


                                                        4
Postal Service Management Instruction –                                                  FT-MA-09-001
 Expenses for Internal and External Events


Management’s Comments

Management neither agreed nor disagreed with the recommendation. They stated this
recommendation was not feasible for several reasons, including the ability to purchase
and pay for items associated with hosting events by different methods and the
ability/requirement to pay at different times. Further, they stated the general ledger
does not have the capability to track individual items and added they do not now have
any system capable of identifying and aggregating events-related data from the various
systems where it is currently stored. Finally, they stated that due to tax implications and
tracking systems, they cannot classify recognition and awards, travel, and paying for
meals and refreshments under one unique general ledger account.

Evaluation of Management’s Comments

We acknowledge that the capability does not currently exist to identify and aggregate all
events-related data. However, we continue to maintain that more transparency of
expenses associated with internal and external events is necessary. Accordingly, we
continued to communicate with management subsequent to receiving their May 13,
2008, comments, while they discussed and evaluated system requirements and
associated costs.

Most recently, we met with management on December 16, 2008, and they advised that
building a new system or re-designing existing systems capable of receiving inputs from
multiple other systems may not be cost beneficial but were willing to work with the OIG
towards a long-term solution based on management’s and the OIG’s needs. We
provided them with a comprehensive list of requirements we believed were necessary
for management’s monitoring of expenses associated with internal and external events.
They will review these requirements and discuss them with us in the future.
Management advised that funding does not exist in the fiscal year (FY) 2009 budget for
any effort related to this issue. However, they will look for the lowest cost solution to
address the transparency issue and, as appropriate, submit a request for the FY 2010
budget, as the planning cycle begins in February 2009.

They did offer alternatives to resolve the issue in the short term. Specifically, they
suggested developing monitoring and reporting controls using features already existing
as part of the General Services Administration’s purchase card program, and advised
that there may be opportunities for similar controls in the design of Omni-Mall.5 As a
first step, management will coordinate a demonstration of these resources to establish a
common understanding of their capabilities. Also, we agreed to hold regular meetings,
beginning in January 2009, to continue to move towards mutual resolution. We
consider management’s ongoing actions responsive to the recommendation and will
continue to monitor this issue as part of our ongoing audit oversight.



5
 The Postal Service plans to implement Omni-Mall to replace the eBuy system as the Postal Service’s preferred
method for ordering goods and services.


                                                        5
Postal Service Management Instruction –                                FT-MA-09-001
 Expenses for Internal and External Events


We recommend the Vice President, Controller, direct the Manager, Corporate
Accounting, to:

    3. Update Management Instruction, Expenses for Internal and External Events, to
       incorporate the remaining changes indicated in Appendix B, the Further Action
       Needed column.

Management’s Comments

In addition to the open items already discussed, management commented on the issues
in Appendix B where further action was needed. Specifically, management:

•   Stated employee recognition and employee appreciation definitions were in the
    exhibits and considered those part of the entire document, so no further definitions
    were necessary.
•   Changed “business meals” to “business representation meals” to further distinguish
    that expense type.
•   Referenced Handbook F-15 but did not state whether managers must exclude non-
    PCES employees because Section II of the MI stated who may attend internal and
    external events.
•   Advised they would not change terms such as “typically,” “when practicable,” and
    “may” at the present time, but will revisit as necessary.
•   Regarding payments for non-Postal Service employee travel and reconciling the MI
    policy with the Exhibits on this same issue, clarified Section III of the MI to advise
    that this type of travel is not authorized unless it is usual and customary and
    advance approval is received.
•   Did not add any tax consideration verbiage for meals and refreshments for spouses
    and immediate family members because it is not significant, tracked, or reported.
•   Believed their response adequately addressed the issues in Appendix B and
    planned no further actions.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation. The
items in Appendix B where further action is needed primarily involve editing for greater
clarity to eliminate ambiguity and misinterpretation. These do not significantly affect
policy, and we believe the changes already made decrease the risk of potential
mismanagement. As a result, we will not persist in pursuing these issues at this time
but will continue to monitor them as part of our ongoing audit oversight.

The OIG considers recommendation 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action is completed. This recommendation should not be closed in the follow-
up tracking system until the OIG provides written confirmation that the recommendation
can be closed.



                                             6
Postal Service Management Instruction –                            FT-MA-09-001
 Expenses for Internal and External Events


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, Director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: H. Glen Walker
    Stephen J. Nickerson
    Vincent H. DeVito, Jr.
    Katherine S. Banks




                                             7
Postal Service Management Instruction –                                          FT-MA-09-001
 Expenses for Internal and External Events


                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The OIG Office of Investigations issued a risk alert in July 2007 to management
recommending that they clarify policies related to reimbursement for non-employee
spousal attendance at business functions. Postal Service officials responded that they
had already begun a review of the Postal Service’s entire policy for payment of meals
and refreshments and would replace MI 640-2001-4, Payment for Meals and
Refreshments (among other guidance), with a comprehensive business meal policy. In
January 2008, the Postal Service provided the OIG with their draft MI for our review and
comment.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to review the draft MI, Expenses for Internal and External Events,
and determine whether it addressed the concerns raised during the OIG xxxxxxxxxxxxx.
To accomplish our objective, we met with management and reviewed relevant
documents, including officers’ travel guidelines, the OIG Office of Investigations’ risk
alert, and applicable laws and regulations, to ensure provisions of the MI were
reasonable, appropriate, and adequate.

We conducted this review from January 2008 through January 2009 in accordance with
the President’s Council on Integrity and Efficiency, Quality Standards for Inspections.
We discussed our observations and conclusions with management officials on March 4
and 28, 2008, and included their comments where appropriate. In addition, subsequent
to the receipt of management’s formal response dated May 13, 2008, we worked with
them to address some additional concerns we had related to their response. In our
meeting with management on December 16, 2008, they identified a course of action to
address our concern to provide transparency of expenses associated with internal and
external events. We did not use computer-generated data during this review.

PRIOR AUDIT COVERAGE

                         Report                Final Report
  Report Title           Number                    Date                   Report Results
Postal Service        FT-WP-06-001           September 29, 2006   Postal Service officers’ travel
Officers Travel                                                   guidelines were not always
Expense                                                           consistent with guidelines
Guidelines                                                        prescribed by benchmarked entities.




                                                     8
     Postal Service Management Instruction –                                    FT-MA-09-001
      Expenses for Internal and External Events



              APPENDIX B: OIG REVIEW OF MANAGEMENT’S COMMENTS AND
                 UPDATES TO THE DRAFT MANAGEMENT INSTRUCTION

Management Advisory Issues                        Addressed or Not Addressed              Further
     Review of Draft Management                   Draft Management Instruction            Action
      Instruction – Expenses for              640-2008-x, Expenses for Internal and       Needed
     Internal and External Events                   External Events, Updated
                                                         March 27, 2008

                                     Use of Personal Credit Cards
1.     Prohibit the use of personal         Addressed on pages 2 and 3 – the Postal      No
       credit cards for working             Service added the sentence “Personal
       meals and employee                   credit cards may not be used as a
       appreciation events. This            method of payment for internal event
       will ensure that employees           expenses” in the following sections of the
       do not use their personal            MI: (1) Internal Events, Under Local Buy
       credit cards to improperly           Threshold, (2) External Events – Under
       accrue personal benefits             Local Buy Threshold and Business
       and rewards or conceal the           Representation Meals While on Travel.
       details of unauthorized
       purchases from the Postal
       Service.
2.     Require employees to use             Addressed on pages 2 and 3.                  No
       their government-issued
       travel card to pay for all
       customary travel and related
       business expenses.
3.     Delete all references to use         Addressed on page 3, and throughout MI       No
       of cash.                             and exhibits.
4.     Add “or personal credit      Addressed in item 1 above.                           No
       cards” to the first sentence
       in the “Exclusions”
       paragraph, immediately after
       “Employees may not use
       Postal Service funds. . .”




                                                      9
     Postal Service Management Instruction –                                       FT-MA-09-001
      Expenses for Internal and External Events



                                                                                             Further
Management Advisory Issues                        Addressed or Not Addressed                 Action
                                                                                             Needed

                                 Consistent and Detailed Definitions
1.     Define “employee                     Addressed in Exhibit A.4 and A.5, pages         Yes
       recognition” and “employee           7 and 8, but not in the policy portion of
       appreciation” meals and              the draft MI.
       gatherings. In the draft MI,
       any meal can be considered
       an employee appreciation
       event if the manager
       concludes it is not “routine.”
2.     Define “internal events” to          Addressed. In our discussions with the          No
       avoid confusion and                  Postal Service, they stated the
       misinterpretation; an                “Exclusions” and “Deviations” sections
       example is the statement             cover such issues. The Postal Service
       that actions are not allowed         added language in these two sections,
       “. . .unless otherwise               which we believe addresses this issue.
       covered by this MI.”
3.     Include the term “significant        Addressed. The Postal Service removed           No
       others” in the policy section        all references to “significant others” in the
       of the MI and define it. In          MI and exhibits.
       the draft MI, the term
       appears only in the exhibits.




                                                      10
     Postal Service Management Instruction –                                   FT-MA-09-001
      Expenses for Internal and External Events


                                                                                         Further
Management Advisory Issues                        Addressed or Not Addressed             Action
                                                                                         Needed
4.     Thoroughly define and                Addressed. The Postal Service deleted       No
       describe “business meals” in         the language we referred to in the draft,
       the policy section, as well as       that the meals must be “required,” and
       within the exhibits. The draft       then specifically authorizes PCES to
       seems to say that meals              “host” business meals with customers.
       must be “required” and               Therefore, the business representation
       specifically authorizes PCES         meals section (pages 3 and 14) has been
       to “host” business meals             addressed.
       with customers. As a result,
       the MI may be in conflict            Not Addressed. We believe Exhibits A.2      Yes
       with Handbook F-15 for local         and A.3, Other References column,
       travel. In addition, clearly         should include Handbook F-15,
       state whether managers               Chapter 7-1.1.1.2, as a reference.
       must exclude non-PCES                Furthermore, the language in A.3 needs
       employees from meals.                to be revised since it may still be in
                                            conflict with Handbook F-15.

                                            Not Addressed. The issue regarding          Yes
                                            whether non-PCES employees must be
                                            excluded from the meals was not
                                            addressed.
5.     Define “manager” in the              Addressed. Postal Service revised the       No
       Business Meals While on              section Business Meals While on Travel.
       Travel section and extend            The revision deleted the word “manager.”
       officers’ travel requirements        Postal Service did not extend officers’
       for documenting business             travel requirements as it relates to
       expenses to managers (for            documenting the business expense per
       example: meeting                     se; however, the information should be
       justification, attendees, and        captured in eTravel as covered within
       receipts).                           Exhibits, B.5, under Supporting
                                            Documentation.
6.     Define what “typically,”             Not Addressed. The Postal Service did       Yes
       “when practicable,” and              not change terminology in the MI or the
       “may” mean in this context           exhibits.
       by using more authoritative
       language (for example,
       “shall” instead of “may”).




                                                     11
     Postal Service Management Instruction –                                  FT-MA-09-001
      Expenses for Internal and External Events


                                                                                        Further
Management Advisory Issues                        Addressed or Not Addressed            Action
                                                                                        Needed
7.     In Exhibit A, explain how            Addressed. The Postal Service added a     No
       “Meals served as part of             definition to A.4 to clarify issue.
       employee recognition or
       group appreciation
       meetings” (see A.4) differs
       from “Employee
       appreciation or recognition
       gatherings where
       refreshments and meals. . .
       may be served” (see A.5).
8.     In both exhibits, specifically       Not addressed. The Postal Service         Yes
       include or exclude payment           should specify on an event-by-event
       for non-Postal Service               basis in the exhibits.
       employee travel on each
       individual “Authorized
       Expense Type.”
9.     In both exhibits, specify the        Addressed. The Postal Service revised     No
       authority level that can             the Approving Authority columns for
       approve each activity under          Exhibits A.1 through B.4 by adding the
       each “Authorized Expense             word “or” and commas in the text to
       Type.”                               delineate who has authority.
10. Clarify the scope of the MI’s           Not Addressed. As defined in the MI,       Yes
    alcohol consumption policy              internal events include “working meeting
    to eliminate conflict with              meals” and external events include
    provisions of 39 C.F.R.                 “business meals.” However, 39 C.F.R.
    § 447.21(e) regarding                   § 447.21(e) and the ELM prohibit Postal
    prohibited conduct and the              Service employees from “drink[ing] beer,
    ELM, Issue 18, dated June               wine or other intoxicating beverages while
    2007, Chapter 6, Employee               on duty.” The ELM states “employees
    Relations, Subchapter 660,              found to be violating this policy may be
    Conduct, Section 665.26,                subject to disciplinary action.” Postal
    regarding intoxicating                  Service personnel informed us senior
    beverages.                              level management would have to address
                                            this issue.




                                                     12
     Postal Service Management Instruction –                                   FT-MA-09-001
      Expenses for Internal and External Events



                                                                                         Further
                                                                                         Action
Management Advisory Issues                        Addressed or Not Addressed
                                                                                         Needed
                       Transparency Among All Postal Service Managers
1.     Ensure the MI addresses tax          Not Addressed. The Postal Service           Yes
       obligations regarding meals          stated meals, refreshments, and
       and refreshments for                 mementos are not taxable. However, the
       spouses, significant others,         draft MI refers to travel expense charges
       and immediate family                 for Postal Service employees attending
       members, instead of                  internal and external events on pages 2
       referring the reader to              and 3. We believe paraphrasing the
       Handbook F-15. The                   additional requirements (must not use
       exhibits should also cover           eTravel and use a separate voucher)
       tax implications and specify         would increase awareness and help
       how to address them.                 ensure compliance with applicable tax
                                            laws.
2.     Include dollar limits or             Addressed. Postal Service included          No
       guidelines regarding                 dollar limits for refreshments and meals
       refreshments and meals,              commensurate with the Officers’ Travel
       commensurate with the                and Representation Expense Guidelines.
       Officers’ Travel and                 Included in Exhibits A.2, B.1, and B.5.
       Representation Expense
       Guidelines.
3.     Reconcile the MI policy              Not Addressed. Postal Service needs to      Yes
       regarding payment of travel          clarify who approves what expenses for
       for non-Postal Service               internal and external events.
       employees (which requires
       PMG or Deputy PMG
       approval) with the exhibits
       (which often allows for
       approval by the hosting or
       responsible officer).
       Additionally, specify that
       “advanced” approval is
       required.




                                                     13
     Postal Service Management Instruction –                                   FT-MA-09-001
      Expenses for Internal and External Events



                                                                                         Further
Management Advisory Issues                        Addressed or Not Addressed             Action
                                                                                         Needed
4.     Bold and italicize the topic         Addressed. The Postal Service              No
       headers “Redelegation,”              reformatted these sections so they stand
       “Exclusions,” “Deviations,”          alone as separate sections.
       and “Allowable Expenses.”
       These appear to be
       separate sections under
       “Business Meals While on
       Travel,” but they are actually
       separate topic headers.
5.     Include the related language         Not Addressed. The Postal Service did      No
       or, at a minimum, the                not address the issue because their view
       specific citation within the         is citations change frequently and would
       criteria stated in the “Other        require updating the MI. We concur.
       References” or “Other Policy
       References” columns of the
       exhibits.
6.     Explicitly state when                Addressed. In our discussions with the     No
       spouses, significant others,         Postal Service, they stated such issues
       or immediate family                  are covered in the “Exclusions” and
       members are excluded to              “Deviations” sections. We concur.
       contrast with the events at
       which they are welcome.
7.     Reconcile the “Exclusions”           Addressed. The Postal Service              No
       policy (page 3) and A.7’s            addressed the issue by adding the
       authorization for retirement         following language “except as authorized
       celebrations.                        in A.7” in the Exclusions section on
                                            page 3.




                                                     14
     Postal Service Management Instruction –                                FT-MA-09-001
      Expenses for Internal and External Events


                                                                                      Further
Management Advisory Issues                        Addressed or Not Addressed          Action
                                                                                      Needed
8.     Require all expenses                 Not Addressed. Postal Service personnel Yes
       associated with internal and         informed us senior level management
       external events (meals,              would have to address this issue.
       refreshments, employee
       recognition gifts, gift cards,
       etc.) to be included in a
       unique general ledger
       account(s). The account(s)
       should identify each item on
       a line item basis along with
       the item recipient’s name
       and date of receipt. The
       account(s) need(s) to be
       clearly indicated in the MI to
       ensure transparency and
       accountability.




                                                     15
Postal Service Management Instruction –                    FT-MA-09-001
 Expenses for Internal and External Events


                       APPENDIX C: MANAGEMENT’S COMMENTS




                                             16
Postal Service Management Instruction –           FT-MA-09-001
 Expenses for Internal and External Events




                                             17
Postal Service Management Instruction –           FT-MA-09-001
 Expenses for Internal and External Events




                                             18
Postal Service Management Instruction –           FT-MA-09-001
 Expenses for Internal and External Events




                                             19
